WAIVER
Supreme Court of the United States
No, 20-6028
Camencita Marie Pedro
(Petitioner)

v,

City Fitness, LLC, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
6ne is requested by the Court.
Please check the appropriate boxeR:
PIPame cuter my appearance AS Counsel of Reenrd for all reapondentg,
roapondents. Please enter my
There are inultlple reepondente, and I do not reprepient
appearaneo he Counsel of Record for the following respondent(s);

.1 am a member of the Bar of, the Supreme Court of the United States,
if< I em not pre„sently a member of the Bar of this Court. Should a reFponse be requested,
her.
llinthe response will be filed I

(Type or print) Name
0 Mrs.
Ms„
„Ift
Deasey;4Iiihan6y & Naluntitii, Ltd.

0 Miss

Firm
1601 Market Street, Suite 3400
Address
City ea SI a tR
Phone

Philadelphia, PA

Zip

19103

(2151 587-9400 x 1178

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER. IF
PRO SE. PLEASE INDICAT,E BELOW THE NAME(S) OF THE BECIPJENT(s) OF A COPY
OrrifiS FORM. NO ADDITIONAL, CERTIFICATE OF SERVICE IS REQUIRED.
I le

Carmencita Marhijedro P.0, Box 15616
541 Nort11. Paxon Street ,
Philadelphia, PA 19131

Obtain FiLat1.19 of case on the docket, By phone at 202.479-3034 or via the internet at
httoiwww.impreinecourtils.gov. Have the Supreme Court docket number available,

FIEECEEEVEED
NOV 2 5 2020
OFFICE C.=
CLERK
SUPREME COURT U.S.

